IN THE SUPREME COURT OF THE UNITED STATES
No. 19-7
Seila Law LLC,
Petitioner,
V.

Consumer Financial Protection Bureau,
Respondent.

CERTIFICATE OF COMPLIANCE WITH RULE 33.l(g)

I, Andrew J. Pincus, counsel for the Chamber of Commerce of the United
States of America, hereby certify that, according to the word-count tool in Microsoft
Word, the Brief of the Chamber of Commerce of the United States of America as

Amicus Curiae in Support of Petitioner consists of 4,740 words, including footnotes
and excluding the sections enumerated by Rule 33.l(d). The Brief therefore
complies with Rule 33.l(g).

Andrew J. Pincus
Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006-1101
(202) 263-3000
a pincus@mayerbrown.com

